NO.

IN THE
SUPREME COURT OF THE UNITED STATES

 

WILLIAM ALLEN
Petitioner
vs.
CANDICE BATTS and TONY PARKER,

Respondent

 

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

 

CERTIFICATE OF COMPLIANCE WITH WORD COUNT LIMITATIONS

 

I, Sumter L. Camp, counsel for petitioner, certify that the petition for certiorari in the
above-captioned case contains 3,612 words, excluding the parts of the petition that are exempted

by Rule 33.1(d).

October 9, 2020 BE
SUMTER L. CAMP (BPR #009917)

Assistant Federal Public Defender
Office of the Federal Public Defender
810 Broadway, Suite 200

Nashville, Tennessee 37203-3805
(615) 736-5047
